Ti

OCKLE

2311 Douglas Street CA
Omaha, Nebraska 68102-1214 Legal B rie -
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1354

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

CITY OF PORTLAND, OREGON, ET AL.,

Petitioners,
v.

FEDERAL COMMUNICATIONS COMMISSION
AND THE UNITED STATES OF AMERICA,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE

PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2933 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

efic namersns. | MOTARY-State of Nebraska
RENEE J. GOSS
efic namersns. | Comm. Exp. September 5, 2023

Notary Public

too Oudiaw-h, Bhhe

Affiant 41000
